  GOVERNMENT PERFORMANCE AND RESULTS ACT GOALS:
         DISPOSAL OF EXCESS REAL PROPERTY

Report No. D-2001-080                      March 15, 2001




             Office of the Inspector General
                 Department of Defense
 Additional Copies

 To obtain additional copies of this audit report, visit the Inspector General, DoD,
 Home Page at: www.dodig.osd.mil/audit/reports or contact the Secondary Reports
 Distribution Unit of the Audit Followup and Technical Support Directorate at (703)
 604-8937 (DSN 664-8937) or fax (703) 604-8932.

 Suggestions for Audits

 To suggest ideas for or to request future audits, contact the Audit Followup and
 Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or fax (703)
 604-8932. Ideas and requests can also be mailed to:

                OAIG-AUD (ATTN: AFTS Audit Suggestions)
                 Inspector General, Department of Defense
                    400 Army Navy Drive (Room 801)
                        Arlington, VA 22202-4704

 Defense Hotline

 To report fraud, waste, or abuse, contact the Defense Hotline by calling
 (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or by
 writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900. The
 identity of each writer and caller is fully protected.




Acronyms

AT&L                 Acquisition, Technology, and Logistics
BRAC                 Base Realignment and Closure
GPRA                 Government Performance and Results Act
NPR                  National Partnership for Reinventing Government
OEA                  Office of Economic Adjustment
PA&E                 Program Analysis and Evaluation
          Government Performance and Results Act
               Excess Real Property FY 2000


360,000
330,000
                     323,458
300,000
          293,000
270,000
240,000
210,000
180,000
150,000                                      170,478
                                  146,989
120,000
 90,000
 60,000
 30,000
      0
          Reported   Actual       Reported    Actual
           Excess    Excess       Disposed   Disposed
           Acres     Acres         Acres      Acres
                       Office of the Inspector General, DoD
Report No. D-2001-080                                                    March 15, 2001
   (Project No. D2000CG-0141)

              Government Performance and Results Act Goals:
                    Disposal of Excess Real Property

                                Executive Summary

Introduction. The Government Performance and Results Act (GPRA) of 1993, Public
Law 103-62, was designed to improve Government-wide program effectiveness,
Government accountability, and public confidence by requiring agencies to identify
measurable annual performance goals, against which actual achievements can be
compared.

This report is one in a series resulting from our audits of GPRA goals. This report
discusses the FY 1999 DoD GPRA Performance Measure 2.3.7, “Disposal of Excess
Real Property.” The performance measure consists of two subordinate performance
measures, each with its own goals. The first subordinate performance measure
facilitates oversight of DoD demolition of its obsolete and excess structures and has an
overall goal to demolish or dispose of 80.1 million square feet of excess facilities by the
end of FY 2003. The FY 1999 demolition goal was to eliminate a cumulative total of
24.6 million square feet by the end of FY 1999. The second subordinate performance
measure tracks disposal of acreage excess to DoD needs as determined through the base
realignment and closure (BRAC) process. The FY 2000 acreage disposal goal was to
achieve a 50 percent reduction (146,500 acres) in total excess acreage.

Objectives. The overall audit objective was to determine whether DoD actions were
effective with respect to fulfilling the GPRA goals of streamlining DoD infrastructure,
as shown in the Secretary of Defense’s “Annual Report to the President and the
Congress,” 2000 (the Annual Report). We also reviewed the management control
program as it applied to the overall audit objective, which will be discussed in a
summary report.

Results. DoD demolished 45.1 million square feet of obsolete buildings through
FY 2000 and was on track to achieve the overall demolition goal of 80.1 million square
feet by the end of FY 2003. DoD achieved its acreage disposal goal by eliminating
146,989 acres by the end of FY 2000. In the Annual Report, DoD reported that it had
293,000 excess acres, an understatement of 30,458 acres. DoD reported it had
disposed of 21,077 acres in FY 1999, an understatement of 4,510 acres. The
cumulative reported total of 146,989 acres was understated by 23,489 acres. Without
complete and accurate disclosure of disposal information, oversight officials cannot
make an accurate assessment of disposal progress, accurate historical information will
not be available for proper planning and funding of future BRAC actions, and any
future decisions cannot be appropriately and accurately made when the data used to
make the decisions are inaccurate. See the Finding section for details.
Summary of Recommendations. We recommend the Deputy Under Secretary of
Defense (Acquisition Reform) and the Director, Program Analysis and Evaluation,
issue guidance to revise the GPRA acreage baseline and disposal goals and modify the
annual reports to present progress made by the Services in disposing of all excess
acreage, noting valid exceptions.

Management Comments. The Acting Deputy Under Secretary of Defense
(Acquisition Reform) concurred with the recommendations and has taken corrective
actions. However, the Acting Deputy nonconcurred with the report’s conclusion that
inappropriate decisionmaking could result due to inaccurate data reported. In addition,
the Acting Deputy nonconcurred with the report’s characterization of GPRA as a
decision process for resource decisionmaking and also nonconcurred that the
recommendations be directed to the Director, Program Analysis and Evaluation. A
discussion of management comments is in the Finding section of the report, and the
complete text is in the Management Comments section.

Audit Response. The Acting Deputy Under Secretary of Defense (Acquisition
Reform) comments were responsive to the recommendations. As for the audit
conclusion that inappropriate decisionmaking could result because of inaccurate data
reported and the characterization of GPRA as a decision process, GPRA was designed
to complement other processes and, therefore, its data should be accurate. We clarified
our characterization of GPRA. We did not redirect the recommendations because the
Acting Deputy Under Secretary had already taken actions to meet their intent. We did
modify the report to clarify that the Office of the Under Secretary of Defense for
Acquisition, Technology, and Logistics is the primary sponsor for Performance
Measure 2.3.7 and is responsible for meeting the quality and monitoring guidelines
established by the Office of Management and Budget. Additional management
comments are not required.




                                           ii
Table of Contents

Executive Summary                                                      i


Introduction
     Background                                                        1
     Objectives                                                        2

Finding
     Disposal of Obsolete Facilities and Excess Acreage               3

Appendixes
     A. Audit Process
          Scope and Methodology                                       10
          Prior Coverage                                              10
     B. Excess and Disposed Acres for BRAC Sites Excluded From GPRA
          Performance Reporting                                       12
     C. Understatements in GPRA Reported Disposed Acres Through
          FY 2000                                                     16
     D. Report Distribution                                           17

Management Comments
     Acting Deputy Under Secretary of Defense (Acquisition Reform)    19
Background
    This report is one in a series resulting from our audits of Government
    Performance and Results Act (GPRA) goals. This report discusses the FY 1999
    DoD GPRA Performance Measure 2.3.7, “Disposal of Excess Real Property.”
    That measure consists of two subordinate performance measures to track DoD
    infrastructure streamlining efforts: the demolition or disposal of obsolete and
    excess facilities located on sites still required by DoD and the disposal of
    acreage excess to DoD needs.
    The Government Performance and Results Act of 1993 (Public Law 103-62).
    GPRA was designed to improve Government-wide program effectiveness,
    Government accountability, and public confidence by requiring agencies to
    identify measurable annual performance goals, against which actual achievements
    can be compared. GPRA requires Federal agencies to prepare strategic plans,
    annual performance plans, and program performance reports covering the
    program activities in their budgets.

    In March 2000, DoD fulfilled its GPRA requirement by publishing a combined
    performance plan for FY 2001 and performance report for FY 1999 in
    Appendix I of the Secretary of Defense’s “Annual Report to the President and
    the Congress,” 2000 (the Annual Report). The Office of the Director, Program
    Analysis and Evaluation (PA&E) obtains performance data and prepares the
    overall GPRA appendix in the Annual Report through a GPRA Implementation
    Issues Team composed of DoD points of contact. The team guides and
    coordinates GPRA compliance activities. The sponsor for GPRA Performance
    Measure 2.3.7, “Disposal of Excess Real Property,” is the Office of the Under
    Secretary of Defense for Acquisition, Technology, and Logistics (AT&L).
    AT&L is responsible for meeting the quality and monitoring guidelines
    established by the Office of Management and Budget.
    GPRA Goals and Measures. In the Annual Report, DoD established two
    corporate level goals and eight subordinate performance goals.
           •   Goal 1. Shape the international security environment and respond to
               the full spectrum of crises by providing appropriately sized,
               positioned, and mobile forces.

           •   Goal 2. Prepare now for an uncertain future by pursuing a focused
               modernization effort that maintains U.S. qualitative superiority in
               key warfighting capabilities. Transform the force by exploiting the
               Revolution in Military Affairs, and reengineer the Department to
               achieve a 21st century infrastructure.

    This audit report addresses Performance Measure 2.3.7, which is one of nine
    measures or indicators used to assess Performance Goal 2.3: “Streamline the
    DoD infrastructure by redesigning the Department’s support structure and
    pursuing business practice reforms.” Performance Goal 2.3 is one of five
    subordinate performance goals of Goal 2.



                                       1
     Disposal of Excess Real Property. To assess progress made in disposing
     property no longer needed by DoD, Performance Measure 2.3.7 uses two
     subordinate performance measures, demolition of excess facilities and disposal
     of excess acreage, each with its own goal. The goal for the demolition of excess
     facilities is 80.1 million square feet by the end of FY 2003. The goal for the
     disposal of excess acreage was 146,500 acres by the end of FY 2000. The
     Annual Report states that the baseline for establishing the excess acreage goal
     was 293,000 acres on bases that were designated for closure by Defense base
     realignment and closure (BRAC) decisions. The DoD progress toward
     achieving each goal is measured using the aggregate performance of all of the
     Services.



Objectives
     The overall audit objective was to determine whether DoD actions were
     effective with respect to fulfilling the GPRA goals of streamlining DoD
     infrastructure, as shown in the Annual Report. Specifically, for this report, we
     assessed the validity of the process, data, and factors used to establish the goals
     related to the demolition of obsolete and excess facilities and the disposal of
     excess acreage. We evaluated the methods used to accumulate and report the
     data collected by DoD against the goals. We also reviewed the management
     control program as it applied to the overall audit objective, which will be
     discussed in a summary report. See Appendix A for a discussion of the audit
     scope and methodology and for prior coverage related to the audit objectives.




                                          2
                Disposal of Obsolete Facilities and Excess
                Acreage
                DoD was exceeding its goal for the disposal of obsolete facilities and
                was on track to achieve its FY 2003 demolition goal. DoD achieved
                its acreage disposal goal by eliminating 146,989 acres by the end of
                FY 2000. However, the goal for disposal of excess acreage was not
                accurately established nor was the progress being accurately reported. In
                the Annual Report, DoD reported that it had 293,000 excess acres, an
                understatement of 30,458 acres. DoD reported it had disposed of 21,077
                acres in FY 1999, an understatement of 4,510 acres. The
                understatements occurred because DoD selected the disposal goal
                established for the National Partnership for Reinventing Government
                (NPR)∗ as its GPRA disposal goal. The NPR goal does not include all
                acreage declared excess and awaiting disposal and, therefore, does not
                accurately present all of the information provided to officials responsible
                for funding and resource decisionmaking. As a result, oversight officials
                cannot make an accurate assessment of disposal progress, accurate
                historical information will not be available for proper planning and
                funding of future BRAC actions, and any future decisions cannot be
                appropriately and accurately made when the data used to make the
                decisions are inaccurate.



DoD Demolition Progress Exceeds Projections
        In FY 1997, DoD surveyed its installations and identified 80.1 million square
        feet of obsolete buildings, including more than 8,000 individual structures,
        which could be demolished to save operation and maintenance dollars. Those
        structures are on installations that DoD does not intend to close. DoD
        established as a GPRA goal the demolition of 80.1 million square feet of
        obsolete facilities by the end of FY 2003. As shown in Figure 1, DoD exceeded
        its demolition goal from FY 1998 through FY 2000 and was on track to achieve
        its GPRA demolition goal for FY 2003.




∗
 Formerly the National Performance Review.


                                             3
                                             100
   Cumulative Square Feet


                                                                                                                82.5
                                              80                                                  72.5                       80.1
                             (in millions)


                                                                                        59.5             72.2
                                              60                                               55.0
                                                                    45.1
                                              40             30.9               39.4                              G o al

                                                   16.6             24.6                                          A c t u a l/ P r o j e c t e d
                                              20
                                                      11.1
                                               0
                                                   1998      1999          2000        2001            2002        2003
                                                                                  F is c a l Y e a r


                            Figure 1. DoD Demolition Progress

Acreage Included in Disposal Measure
                            BRAC Actions. DoD, in close cooperation with Congress, proposed the BRAC
                            process to bring the base structure in line with the declining force structure. As
                            a result, installations considered excess to the needs of DoD were identified so
                            as to apply base structure savings to force modernization and readiness. The
                            GPRA excess acreage measure tracks disposal of land on bases that have been
                            authorized for closure by BRAC decisions. As each installation is closed, DoD
                            disposes of its excess acreage primarily through direct transfers to other Federal
                            agencies, deed conveyances through public benefit transfers, economic
                            development transfers, long-term leases, or market sales.

                            BRAC Sites Included in GPRA. DoD reports GPRA acreage disposal progress
                            at 105 BRAC sites that had undisposed excess acreage on September 30, 1996.
                            Those sites were already being used to track disposal progress for the NPR at the
                            time the GPRA measure was selected. The NPR was created in 1993 as an
                            interagency task force designed to fundamentally change the Federal Government
                            and make it work better, cost less, and produce results Americans care about.
                            Service Reporting Procedures. Service field agencies report field data to their
                            regional BRAC service centers as property transfers occur. The number of
                            excess acres approved for transfer is also updated as property transactions occur.
                            Regional service centers then report data to their BRAC headquarters offices,
                            which review, update, and verify excess and disposed acreage data and forward
                            the data quarterly to the Office of Economic Adjustment (OEA). OEA is the
                            primary DoD office responsible for providing technical and financial assistance
                            to communities adversely affected by BRAC in order to help redevelop closed
                            bases into centers for job creation and other community activities. OEA officials
                            manage all Service acreage data to ensure uniformity and consistency for
                            quarterly submission to AT&L and ultimately to PA&E. DoD reports progress
                            made by the Services in disposing of excess acreage at the 105 BRAC sites using
                            the same procedures and data for both GPRA and the NPR.

                                                                            4
Acreage Excluded From Disposal Measure
    GPRA Disposal Measure. The FY 1999 GPRA disposal goal of 146,500 acres
    was 50 percent of the adjusted FY 1997 baseline of 293,000 excess acres. The
    Annual Report states that the FY 1997 baseline does not include 185,669 acres
    belonging to three of the 105 BRAC sites included in the GPRA measure. Those
    three sites are the Naval Air Facility, Adak, Alaska (73,923 acres); the Sierra
    Army Depot, California (60,108 acres); and the Jefferson Proving Ground, Indiana
    (51,638 acres). Those three sites are excluded because of their large size or the
    presence of unexploded ordnance.
    NPR Disposal Measure. DoD does not report disposal progress at all BRAC
    sites for the NPR goal. At the time that BRAC sites for the NPR disposal
    measure were selected, 56 sites (listed in Appendix B) were excluded because
    those sites generally had less acreage than the 105 included sites.


Accuracy of Reported GPRA Disposal Progress
    The GPRA goal, performance measure, and performance report for disposal of
    excess acreage does not include the 56 BRAC sites excluded from the NPR
    measure. When the initial DoD GPRA performance plan was revised for
    FY 1999, the NPR measure was selected as the GPRA measure, which resulted
    in those 56 sites being excluded from the GPRA measure. Exclusion of those
    sites understates both the excess acreage available for disposal and the number
    of acres disposed. However, the Services are required to dispose of all BRAC
    site acreage.

    Understated GPRA Excess Acres. We calculated the FY 1999
    understatements in DoD reported excess acres by comparing the actual excess
    acres at all BRAC sites with excess acres at the 105 reported BRAC sites. DoD
    actual FY 1999 excess was 323,458 acres, or 30,458 (10.4 percent) more acres
    than the 293,000 excess acres reported. Those additional excess acres belong to
    the 56 BRAC sites excluded from GPRA and should have been added to the
    DoD baseline of 293,000 excess acres before establishing disposal goals.
    Appendix B lists the number of acres at each of the 56 sites.
    The Navy had the most significant share of the understatement in total acreage
    intended for disposal but excluded from GPRA. The Navy’s reported 62,227
    excess acres were understated by 21,253 (25.46 percent), based on the 83,480
    total Navy acres available for disposal. Of the remaining 9,205 unreported
    excess acres, 9,142 and 63 acres belong to the Army and the Air Force,
    respectively.

    Unreported Disposed Acres. For FY 1999, DoD actually disposed of 25,587
    acres at all BRAC sites, as shown in Figure 2. DoD reported disposal of only
    21,077 acres, which was an understatement of 4,510 acres (21.4 percent).
    Appendix C lists acres disposed by the Services but not reported under GPRA.
    Only the Army and the Navy had unreported disposed acres in FY 1999.


                                       5
        30,000
        25,000
        20,000                                            25,587
                               21,077
        15,000
        10,000
         5,000
             0
                               DoD                         DoD
                              Reported                     Actual
     Figure 2. FY 1999 Disposed Acres


DoD FY 2000 Acreage Disposal Goal
    DoD reported 146,989 disposed acres as of September 30, 2000, as shown in
    Appendix C. DoD achieved its GPRA goal for disposal by September 30, 2000,
    of 50 percent (146,500 acres) of its reported 293,000 excess acres. However,
    the GPRA disposal goal of 146,500 acres was inaccurately established because
    numerous BRAC sites were excluded from the GPRA measure. The DoD
    disposal goal, using all BRAC sites, would be 50 percent of its actual 323,458
    excess acres, or 161,729 acres. As shown in Appendix C, DoD achieved that
    goal by actually disposing 170,478 acres by September 30, 2000. Although DoD
    met its disposal goals using either the reported or the actual BRAC site acreage,
    the number of acres reported as disposed (146,989) as of September 30, 2000,
    was understated by 23,489 acres, or 15.98 percent.


Disposal Reporting
    Disposal Acreage Excluded From the Reporting Process. OEA had no
    policies that addressed the total acreage to be included in GPRA performance
    reporting. Because the Annual Report does not specifically state that the GPRA
    measure includes only the BRAC sites selected for the NPR measure, the
    acreage information included in the GPRA goal, performance measure, and
    performance report is misleading. In addition, the Annual Report implies that
    all BRAC acreage is included as part of the GPRA measure by listing only three
    sites as being excluded. The Annual Report makes no mention of the 56 other
    BRAC sites excluded from the GPRA measure. Appendix B lists the BRAC
    sites with excess acreage requiring disposal but which have been consistently
    excluded. We found no reason why those sites should be excluded from the
    GPRA measure.

    DoD Interest in Reporting Accurate Disposal Progress. OEA officials
    informed us that they never offered, nor did AT&L officials ever ask for, more
    accurate and complete disposal information by having acreage at all BRAC sites
    included in the GPRA goal, performance measure, and performance reports.

                                         6
    The Services maintain acreage disposal data for all BRAC sites. Furthermore,
    OEA officials informed us that they created their own database during February
    1999 to provide information on all BRAC sites to DoD and congressional
    officials promoting BRAC. Despite access to Service disposal records and its
    own database of all BRAC sites, OEA officials never informed AT&L or PA&E
    officials of the significant effect of excluding numerous BRAC sites from the
    GPRA disposal measure. In addition, at the start of our audit, some OEA and
    Service BRAC officials were not aware that only their NPR disposal data were
    being used for the GPRA performance reporting.


Adequacy of Guidance for Disposal Performance Reporting
    Information provided to PA&E for publication in the Annual Report was
    inaccurate because AT&L had not issued specific guidance requiring that
    disposal data for all BRAC sites be included in the GPRA goal, performance
    measure, and performance reports. AT&L, PA&E, and OEA officials were not
    aware that more accurate and complete acreage disposal data were readily
    available from databases maintained by OEA and the Services. Therefore,
    GPRA performance reports did not include all the data available for funding and
    resource decisionmaking.
    DoD established an annual disposal goal of 20,000 acres for both FYs 2001 and
    2002 and will continue to report acreage disposal progress. We believe that
    GPRA reporting of progress made by the Services in disposing of BRAC
    acreage should include progress made at all BRAC sites. Appendix I of the
    Annual Report states that the approach taken by GPRA to link expenditures and
    performance is consistent with how DoD applies its internal management
    process—the PPBS (Planning, Programming, and Budgeting System)—to guide
    the implementation of Quadrennial Defense Review decisions. Without
    complete disposal information, oversight officials do not have an accurate
    assessment of disposal progress, particularly for the Army and Navy. Without
    specific guidance, OEA and the Service BRAC officials will not modify their
    disposal performance reporting procedures to provide more accurate GPRA
    information. In addition, accurate historical information will not be available
    for proper planning and funding of future BRAC actions. Specific guidance is
    therefore necessary to inform all parties involved that progress for GPRA
    Performance Measure 2.3.7 includes progress at all BRAC sites, except the
    three sites excluded because of their large size or the presence of unexploded
    ordnance.


Conclusion
    Based on DoD demolition progress, DoD was on track to achieve its GPRA
    demolition goal of 80.1 million square feet by the end of FY 2003. DoD also
    met its disposal goal for excess acreage. However, DoD has consistently
    understated the disposal baseline, goals, and progress in its GPRA performance
    reports. Without complete and accurate disclosure of disposal information,
    oversight officials cannot make an accurate assessment of disposal progress,

                                       7
    accurate historical information will not be available for proper planning and
    funding of future BRAC actions, and any future decisions cannot be
    appropriately and accurately made when the data used to make the decisions are
    inaccurate.


Management Comments on the Report and Audit Response
    The Acting Deputy Under Secretary of Defense (Acquisition Reform) provided
    comments on the report’s conclusion and the characterization of GPRA. For the
    full text of the comments, see the Management Comments section of this report.
    Management Comments. The Acting Deputy Under Secretary of Defense
    (Acquisition Reform) nonconcurred with the report’s conclusion that
    inappropriate decisionmaking could result due to inaccurate data reported. In
    addition, the Acting Deputy Under Secretary nonconcurred with the report’s
    characterization of GPRA as a decision process for resource decisionmaking.
    She also nonconcurred that the recommendations be directed to PA&E.
    Audit Response. Acting Under Secretary of Defense (Comptroller)
    memorandum, “Government Performance and Results Act Implementation,”
    October 16, 1997, states:
              Subordinate level strategic planning documents, goals, and objectives
              will be complete, provided linkage is demonstrated from the QDR
              [Quadrennial Defense Review] and other higher level strategic
              planning documents to the planning document being developed. . . .
              To a large extent, GPRA complements the DoD Planning,
              Programming, and Budgeting System (PPBS) in that the objectives of
              both are to translate strategic planning documents into programs and
              activities through which the plan can be accomplished. . . . I
              recommend that subordinate level organizations also integrate their
              GPRA planning and program evaluations with the DoD PPBS.

    It is apparent that the implementation of GPRA was designed from the beginning
    to complement other processes such as the Quadrennial Defense Review and the
    Planning, Programming, and Budgeting System. We never intended to
    characterize GPRA as a totally stand-alone process and modified the discussion
    accordingly. However, because GPRA was intended to complement various
    DoD planning and program review processes, accurate planning and program
    review decisions cannot be made when the data are incomplete or inaccurate.
    Although we did not redirect the recommendations, we did modify the report to
    clarify that AT&L is the primary sponsor for Performance Measure 2.3.7.


Recommendations and Management Comments
    We recommend that the Deputy Under Secretary of Defense (Acquisition
    Reform) and the Director, Program Analysis and Evaluation:

           1. Issue guidance to the Director, Office of Economic Adjustment,

                                           8
requiring that disposal progress reported by each Service for the
Government Performance and Results Act present progress made in
disposing of all excess acres remaining to be disposed as of September 30,
1996, except acres belonging to sites excluded from the Government
Performance and Results Act because of their large size or the presence of
unexploded ordnance.

Management Comments. The Acting Deputy Under Secretary of Defense
(Acquisition Reform) concurred and issued a memorandum to the Director,
Office of Economic Adjustment, thorough the Deputy Under Secretary of
Defense (Installations) requiring that the disposal progress reported for the
GPRA by each Service BRAC office present progress in disposing of all excess
acres remaining to be disposed as of September 30, 1996.

       2. Revise the baseline and all existing and future acreage disposal
goals to accurately present the DoD efforts to dispose of all Defense base
realignment and closure sites remaining as of September 30, 1996, except
those excluded because of their large size or the presence of unexploded
ordnance.

Management Comments. The Acting Deputy Under Secretary of Defense
(Acquisition Reform) concurred and issued a memorandum to the Deputy Under
Secretary of Defense (Installations) and the Director, Office of Economic
Adjustment, to revise all existing and future BRAC acreage disposal goals to
accurately present the DoD efforts to dispose of all excess acres remaining as of
September 30, 1996.

       3. Revise descriptions of the excess acreage disposal process in
future annual reports to specifically require that Government Performance
and Results Act Performance Measure 2.3.7 presents progress made by the
Services in disposing of all excess acres remaining to be disposed as of
September 30, 1996, unless valid and documented exclusions for specific
acres apply, and list the exclusions.
Management Comments. The Acting Deputy Under Secretary of Defense
(Acquisition Reform) concurred and issued a memorandum to the Deputy Under
Secretary of Defense (Installations) and the Director, Office of Economic
Adjustment, to revise the excess disposal process in the FY 2000 and future data
maps and annual reports to specifically state that GPRA Performance Measure
2.3.7 presents the Services’ progress in disposing of all excess acres remaining
as of September 30, 1996, unless valid and documented exclusions for specific
acres apply.




                                    9
Appendix A. Audit Process
Scope and Methodology
    Work Performed. In the Annual Report, DoD reported that it would meet, by
    the target date of the end of FY 2000, its mid-term goal of 146,500 disposed
    acres. DoD also reported that it exceeded its FY 1999 goal for demolishing or
    disposing of obsolete and excess buildings and that no shortfalls were expected
    in FY 2000. We verified that disposal processes for excess acreage and
    facilities were consistently described and applied. We also made inquiries of
    DoD and Military Department staff to determine the methodology used to
    prepare and compile the facility demolition and excess acreage disposal goals
    and data. During the audit, we interviewed DoD officials in the Office of the
    Deputy Under Secretary of Defense (Acquisition Reform), the Defense Reform
    Office, the Office of the Deputy Under Secretary of Defense (Installations), the
    OEA, the Military Departments, and the Defense Logistics Agency. We
    obtained numerous documents from those various sources to validate the
    accuracy of the reported demolition of obsolete and excess facilities and the
    reported disposal of excess acreage. Documents included land deeds; long-term
    lease agreements; Military Department real property records; DoD annual
    reports to the President and the Congress; the DoD Acquisition Reform Goal;
    and numerous related reports, directives, and procedures. Those documents
    generally covered the period from FY 1997 through FY 2000.
    Use of Computer-Processed Data. We verified that acreage and demolition data
    provided by OEA and the Services were accurate through the judgmental
    sampling and tracking of data back to source documentation.
    Audit Type, Dates, and Standards. We performed this program audit from
    April through September 2000 in accordance with auditing standards issued by
    the Comptroller General of the United States, as implemented by the Inspector
    General, DoD. Accordingly, we included tests of management controls
    considered necessary.
    Contacts During the Audit. We visited or contacted individuals within DoD.
    Further details are available on request.
    Management Control Program Review. Our review of management controls
    over GPRA performance measure goals will be discussed in a summary report
    upon completion of the current reviews.


Prior Coverage
    The General Accounting Office has conducted multiple reviews related to
    GPRA. This report is one in a series on the Inspector General, DoD, current
    reviews of GPRA performance measures and indicators. Unrestricted General
    Accounting Office reports can be accessed over the Internet at
    http://www.gao.gov. Unrestricted Inspector General, DoD, reports can be
    accessed at http://www.dodig.osd.mil/audit/reports.

                                       10
Appendix B. Excess and Disposed Acres for
            BRAC Sites Excluded From GPRA
            Performance Reporting

                                                                             Excess       Disposed
         Acreage Location                                                    Acres         Acres∗
         Army - Excluding Family Housing Sites

         Alabama Army Ammunition Plant, AL                                        2,209        0
         Branch U.S. Disciplinary Barracks, CA                                    2,851        0
         East Fort Baker, CA                                                         93        0
         Fort Hunter Liggett, CA                                                    106        0
         Rio Vista Army Reserve Center, CA                                           28        0
         Bennett Army National Guard Facility, Arapaho County, CO                   242        0
         Fort Des Moines, IA                                                         49       49
         Hingham Cohasset, MA                                                       125        0
         Sudbury Training Annex, MA                                               2,301    2,205
         NIKE Kansas City 30, MO                                                     20        0
         Fort Missoula, MT                                                           21        0
         Recreation Center #2, Fayetteville, NC                                       4        0
         Camp Kilmer, NJ                                                             49        0
         Camp Pedricktown, NJ                                                        46        0
         Fort Dix, NJ                                                               302       14
         Bellmore Logistics Activity, NY                                             17        0
         Charles E. Kelly Support Center, PA                                         26       10
         Fort Indiantown Gap, PA                                                    575      575
         Tacony Warehouse, PA                                                        14        0
         Defense Mapping Agency, Herndon, VA                                         12       12
          Subtotal                                                                9,090    2,865

         Army - Family Housing Sites

         Swansea, MA                                                                  5        5
         NIKE NY 79/80, Livingston, NJ                                               14        0
         NIKE NY 93/94, Franklin Lake, NJ                                            11       11
         NIKE Philadelphia 41/43, Clementon, NJ                                       4        0
         Manhattan Beach, NY                                                          5        5
         NIKE NY 99, Spring Valley, NY                                                5        5
         Pitt 25, Monroeville, PA                                                     8        8
           Subtotal                                                                  52       34
              Total Army                                                          9,142    2,899




∗
 Cumulative disposed acres from September 30, 1996, through September 30, 2000.


                                                11
                                                                             Excess    Disposed
         Acreage Location                                                    Acres      Acres∗
         Navy - Excluding Naval Reserve Centers

         Naval Public Works Center, San Francisco, CA                           554        355
         Salton Sea Test Base, Imperial County, CA                           19,410     19,410
         NUWC/NUSC, New London, CT                                               32         17
         Naval Air Station, Key West, FL                                        182        127
         NRL, Underwater Sound Reference Detachment, Orlando, FL                 19         12
         NMCRC, Fort Wayne, IN                                                    4          4
         NMCRC, Lawrence, MA                                                      7          7
         NSWC, Carderock Division Detachment, Annapolis, MD                      68          0
         Naval Hospital Philadelphia, PA                                         49          0
         NAWC-AD, Open Water Test Facility, Oreland, PA                          14         14
         Philadelphia Naval Shipyard, Philadelphia, PA                          266          0
         Fleet and Industrial Supply Center, Charleston, SC                       1          0
         Navy Radio Transmission Facility, Driver, VA                           600        600
          Subtotal                                                           21,206     20,546
         Navy - Naval Reserve Center Sites

         Huntsville, AL                                                            3         3
         Pacific Grove, CA                                                         4         4
         Stockton, CA                                                              4         4
         Coconut Grove, Miami, FL                                                  3         3
         Monroe, LA                                                                5         5
         New Bedford, MA                                                           2         2
         Pittsfield, MA                                                           11        11
         Cadillac, MI                                                              2         2
         Great Falls, MT                                                           3         3
         Perth Amboy, NJ                                                           3         0
         Jamestown, NY                                                             2         2
         Ogden, UT                                                                 3         3
         Staunton, VA                                                              1         1
         Sheboygan, WI                                                             1         1
           Subtotal                                                               47        44
              Total Navy                                                      21,253    20,590




∗
 Cumulative disposed acres from September 30, 1996, through September 30, 2000.


                                                12
                                                                             Excess    Disposed
         Acreage Location                                                    Acres      Acres∗
         Air Force

         Ontario International Airport Air Guard Station, CA                      11         0
         Roslyn Air Guard Station, NY                                             52         0
          Total Air Force acreage                                                 63         0
             Total DoD                                                        30,458    23,489


         Acronyms
         NAWC-AD          Naval Air Warfare Center - Aircraft Division
         NMCRC            Navy/Marine Corps Reserve Center
         NRL              Naval Research Laboratory
         NSWC             Naval Surface Warfare Center
         NUSC             Naval Underwater Systems Center
         NUWC             Naval Undersea Warfare Center




∗
 Cumulative disposed acres from September 30, 1996, through September 30, 2000.


                                                13
Appendix C. Understatements in GPRA
            Reported Disposed Acres Through
            FY 2000
   The following table shows the understatements in GPRA reported disposed acres
   by comparing the number of acres actually disposed at all BRAC sites with the
   number of disposed acres reported in GPRA. All acres within the table were
   available for disposal as of September 30, 1996. Cumulative data are from
   September 30, 1996, through September 30, 2000.

                  Understatements in GPRA Reported Disposed Acres
                                                    GPRA
      Component                       GPRA         Reported          Percent
    (FY/Cumulative)     Actual       Reported    Understatement   Understatement

    Army
     1999                 6,324         5,737            587            10.23
     2000                10,142         7,889          2,253            28.56
     Cumulative          48,954        46,055          2,899             6.29

    Navy
     1999                15,129        11,206          3,923            35.01
     2000                31,866        19,969         11,897            59.58
     Cumulative          58,829        38,239         20,590            53.85

    Air Force
     1999                 3,943         3,943              0             0
     2000                 7,249         7,249              0             0
     Cumulative          61,981        61,981              0             0

    DLA
     1999                  191            191              0             0
     2000                  355            355              0             0
     Cumulative            714            714              0             0

    Total
     1999                25,587        21,077          4,510            21.40
     2000                49,612        35,462         14,150            39.90
     Cumulative         170,478       146,989         23,489            15.98




                                    14
Appendix D. Report Distribution
Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
  Deputy Under Secretary of Defense (Acquisition Reform)
  Deputy Under Secretary of Defense (Installations)
Under Secretary of Defense (Comptroller)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)
  Director, Program Analysis and Evaluation

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Non-Defense Federal Organization
Office of Management and Budget

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations, Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on
  Government Reform


                                          15
Acting Deputy Under Secretary of Defense
(Acquisition Reform) Comments




                      17
18
Audit Team Members
The Contract Management Directorate, Office of the Assistant Inspector General for
Auditing, DoD, prepared this report. Personnel of the Office of the Inspector General,
DoD, who contributed to the report are listed below.

Paul J. Granetto
Wayne K. Million
Bobbie Sau Wan
Joyce S. McCutcheon
Eric D. Broderius
Marilyn L. Forney
John C. Harman
